IN THE
SUPREME COURT OF THE UNITED STATES
No.
JORGE RAMON NEWBALL MAy,

Petitioner
Vv.

UNITED STATES OF AMERICA,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Jorge Ramon Newball May, by and through his undersigned
counsel, asks leave to file the petition for a writ of certiorari without prepayment of
costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts:
1. The United States District Court for the Middle District of Florida
2. The United States Court of Appeals for the Eleventh Circuit
The undersigned was appointed to represent the Petitioner pursuant to 18

U.S.C. ยง 3006A in both of the above-mentioned courts.
Respectfully Submitted on this 24th day of May 2021,

BJORN E. BRUNVAND
Brunvand Wise, P.A.

615 Turner Street

Clearwater, FL 33756
Telephone: (727) 446-7505
Email: bjorn@acquitter.com
Florida Bar No. 0831077
Counsel of Record for Petitioner

Newball May v. United States
Motion for Leave to Proceed in Forma Pauperis
Page 2 of 2
